?

N

v oi>32
IN THE

SUPREME COURT OF THE UNITED STATES

FILED
AUG 3 0 2020
SUPlREM°FOOUFfeLNRK

Simon F Ranteesi
— PETITja
(Your Name)
vs.

Eric Arnold
_ — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Ninth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
Simon F Ranteesi

(Your Name)
C.M.C-State Prison P.0.Box-8101

(Address)
San Luis Obispo CA 93409-8101
(City, State, Zip Code)

(Phone Number)

I

QUESTION(S) PRESENTED
(1)
Was Petitioner denied his Human and Civil Rights Under the
First, fifth, sixth, eight,and fourteenth Amendment
to the United
States Constitution, By the trial court's exclusion of the bases
for expert opinion regarding appellant Mental State was it prejudicial
and violated Evidence Code 801 & 802, and deprived appellant of his
right to due process and ameaning opportunity to present a defense and
a fair Trial, does this wrongful court's exclusion of the bases
of the expert opinion prejudice petitioner given the distorting
effect of the rulling?
(2)
Was petitioner denied his Human and Civil Rights Under the
First, fifth, sixth, eight, fourteenth , and fifteenth amendment
to the United States Constitution,

by The trial court Committed

reversible error in denying the defense its request for the two
Jury instruction (By) and Involuntary Intoxication-CALCRIM 3425 &
3427 the Unconsciousness defense Cal P.C 26-4, and deprived appellant
of his right to due process and a meaning opportunity to present
his defense; Fair Trial, does the trial court wrongfuly denied
defense the Unconsciousness defense " Legally Unconsciousness"
did prejudice petitioner and appellant Ranteesi given the
Distorting effect of the Rulling?

II

the

I-/

(3)
Was Petitioner denied his Human and Civil Rights Under the
First, fourth, fifth, sixth,
eight, fourteenth , and fifteenth
amendment to the United States Constitution,

By the Fraud committed

by the Paxil Manufacturer Glaxo Smith Kline (GSK) did caused.
Vacaville police Failure to read the Miranda Right, Because the
Vacaville Police were incompetent to determined that Ranteesi
the
Petitioner And the Appeallant was Intoxicated from Paxil drugs,
and Ranteesi was the victim of Medical Malpractice because of Pax|i
Does this Vacaville Police incompetent to determined that Ranteesi
was intoxicated from Paxil prejudice Petitioner Given the distorting
effect of the rulling?
(4)
Was petitioner denied his Human and Civil Rights Under the
First, Fourt, fifth, sixth,
eight , fourteenth, and fifteenth
amdndment to the United States Constitution, By the Fraud Committed
by the Paxil Manufacturer (Glaxo Smith Kline) (GSK) did caused
Vacaville Police and Solano County Prosecution team to becam
incompetent to prosecute Ranteesi instead they should
prosecute
the Negligent Party who get "Ranteesi" Intoxicated without his Fault.
Also they intentionally or negligently withheld evidence favorable
to Ranteesi, does this Incompetent on Vacaville Police Investigator
and Solano County Prosecution team did prejudice Petitioner and
appellant Ranteesi given the distorting effect of the Rulling?

Ill

r
(5)
Was Petitioner denied his Human and Civil Rights Under the
First, fourth , fifth, sixth,

eight, fourteenth, and fifteenth

amendment to the United States Constitution, By the fact of this
case is that the fraud committed by the Paxil Manufacturer Glaxo
Smith kline (GSK) did caused the experts witnesses at Ranteesi's
jury trial to became deceitful, Fraudulent, and they Misrepresenting
the facts, and Negligently or intentionally withheld evidence of
the side effects of the antidepressant Paxil Medication, and the
expert witnesses fraudulently misdiognosed Ranteesi's mental illness
does this fraudulent, deceitful, and misrepresenting of the facts
by the expert witnesses prejudice petitioner and appellant Ranteesi
given the distorting effect of the rulling?
(6)
Was Petitioner denied his Human and Civil Rights Under the
First, fourth, fifth, sixth, eight, fourteenth, and fifteenth
amendment to the United States Constitution, By fact of this case
is that thefraud committed by the Paxil Manufacturer Glaxo
Smith Kilne (GSK) did caused the trial counsel to become ineffective
and incompetent to defend Ranteesi who is intoxicated without his
fault from the antidepressant Paxil, trial counsel performance fell
bellow the standareds of effective counsel because of the fraud
committed by the Paxil Manufacturer (GSK), dose this incompetent
effective of counsel did prejudice Petitioner and Appellant Ranteesi
given the distorting effect of the Rulling?

IV

6

(7)
Was Petitioner denied his Human and Civil Rights Under the
First, fourth, Fifth

9

9

Sixth, eight, fourteenth, and Fifteenth

Amendment to the United States Constitution, By the Fact of this
case that the Fraud committed by the Paxil Manufacturer Glaxo Smith
Kline (GSK) did caused the Appellant counsel to became ineffective
and Incompetent to Raise the Following; 1- Effective Assistance of
trial Counsel. 2-Failure of the Vacavill police
to give Miranda Rights
3- Prosecutor misconduct; Brady Violation 4- Many Judicial error /
Misconduct/ abuse of discretion/ Civil and Constitutional violations
does this incompetent and Ineffective Appellant Counsel did Prejudice
Petitioner and Appellant Ranteesi given the Distorting effect of
the Rulling?
(8)
Was Petitioner denied his Human and Civil Rights Under the
First, fourth, fifth,sixth, eight, fourteenth , and fifteenth
Amendment to the United States Constitution, By the fact of this
case that the fraud committed by the Paxil Manufacturer Glaxo Smith
Kline (GSK) did caused this Human And Civil rights Violations by
the Federal Food and Drug Administartion (FDA$)officials whom they
Approved Paxil drugs, which is a man Made Chemicals dangerous by
nature without adequate warning

does this fraud committed by (GSK)

redered the (FDA) Officials Incompetent which

cause Ranteei to

rely on the (FDA) did this Prejudice Petitioner and tAppellant
Ranteesi given the distorting effect of the Rulling?

V

(9)
Was petitioner denied his Human and Civil Rights Under the First,
Fourth, Fifth, Sixth, Eight, Fourteenth, and Fifteenth Amendment to the
United States Constitution, by the fact of this case that the Fraud
committed by the PaxilManufacturer Glaxo Smith Kline (GSK) did cause
this Human and Civil Rights Violation. This violation Causes many
and Cumulative of errors By the Trial and appealant Counsel, Prosecution
Govermental Misconduct, and Trial Judge abuse of Discretion, and appe—
allant Judges working together to deney the Jury Instruction defense
Cal P.C 26-4 Unconsciousness due to the Involuntary Intoxication from
the Prescribed medication "PAXIL" and give this Massive and deep Fraud,
and gives this error, was petitioner prejudiced by the Jury's complete
inability to consider this affirmative defense?

VI

/
I

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
DECLARATION OF SIMON F RANTEESI F-41729
I Simon F Ranteesi, Pursuant to 28 U.S.C. § 1746, Declare Under
Penalty of Perjury as Follow:
I Hereby Certify that on •Xu(^UjT 3 k

I Serve a copy of the

Petition for Writ of Certiorari on Counsel for Respondent.
With its Appendix^—£

and

its Exhibits A—

On the

Department of Justice
Office of the Attorney General
455 Golden Gate Ave # 11000
San Francisco CA 94102-2664

By Placing a copy in a postage paid envelop in the United States
Mail at C.M.C-State Prison. P.0.Box-8101. San Luis Obispo CA 93409-8101
I Declare Under the Penalty of Perjury Under the Law of the State of
California that the Foregoing is true and correct to the best of
My knowledge.
Date

Respectfully Submitted
Simon F Ranteesi F-41729
In Pro se

VII

TABLE OF CONTENTS
OPINIONS BELOW.....................
JURISDICTION................................
CONSTITUTIONAL AND STATUTORY PROVISIONS

.......a
3

INVOLVED

STATEMENT OF THE CASE.....................

...........H

REASONS FOR GRANTING THE WRIT
CONCLUSION............................
.............

INDEX TO APPENDICES
APPENDIX A ~ is the United States Court of Appeals for the Ninth
Circuit ^MEMORANDUMS Filed. On -yuJls lH \c%rx
A

Acn.ei Uai cm# H-tflt*, o7%im it 11-WU
APPENDIX B- Is the United States District Court for the Easter*?
District of California Order On
,
and the
Mja8.iStirat,e Ju/dge (F & Rs) Dated Vi »
‘i olX________
APPENDIX C rts-JtS** twrLelr fypeaU
th<- ,vd%
APPENDIX D

appendix e

o'/j-f*

il

f^-Xkroaj'i^er4ti»« Ae/u

<fc- 'I-'tit;i, v>xdi;ig-iv~i.il-KJM-DR
Ccutty °\ J,/« l

qjr.Oa ieaJ CcTfuj Aot.eA r>„ 9

,,

Court t>l frypea l «i /X strfc D^ CAlXfoltMIA
WA/ it- o'fUqhebJ Cprfaj icn'tci.Cr.ln l lrJ-1 ti Am 7/7

Wre/WrC^W CAlXfofi/nA..
■.Aemsk_Bo^% .Ai.Ui*
JWJih

APPENDIX F.

5vwmcrm ichsre\LcViHt^iiooa/ pro vA'cv cliafiov
**

pa}<Jf-2
C>e # XU

BXtffWTS A- WMxterid /Pe+rtiovcS' Ldievc
ir^f
jet fcibJc

VIII

,
(0 [ i) {yT^

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

__ ________ ______

Hft

f ij,

>w ivi (mlS OT

fete, *,fa#r **>■": «^>»ssfor
? LPK) 1A 9.yy-(,^i<f\

3-0,

J^Q^fc 1/ JZoJsJ^'^eZ_.l^J CaJ ^t^JlZXL9lX)
j

ftftjMn)
%n V#l/h > $& frx> |p3 jrj 7 i S<f
^
g£l (fftH-)

3a

JU

3t
li­

3X

Z4L-

LlM-J&LJkuyLlA IQ Its /W?)? \
^Xxf2.Uj\/^Jlcx CqMj>

u
^ %A /ttf.

H

%a-Jft&i2L' V H ft r.kr. t
t/i-Oaft kj/yL; J ufZ4__{p_

ji %y

u (j

tja-£j>llV^KlM_Tc, Xa( 11 LJL!2-JLA^_ci2-s 041cl

Ufift4laj__v__ A t^ UmLFC___ ly
6ftd±l&>

V.

ftr<-nUr,\i

JJL

i IIP 7ft, ‘fttfQtnz’) 12

Sls-JJ

-Cir. /Lo! i)________
J/MklLaL.Gcac).l_SiJ__ u.i. 13/-.IZS i. tt !„ith-.Q't
XJqc/ty, J^^ahiirlSJ'j-l U, I.U7S. i4^‘tn^„o\

IX

a

(r*h.
37
3
3

ft

TABLE OF AUTHORITIES
CASES

I°A6£ #

Bradley v Duncan (9th Cir 2002) 315 F. 3d 1091

/2,20

California v Trombetta (1984) 467 U.S 479
Champman v California (1967) 386 U.S 18
City of Sacramento v Drew (1989) 207 Cal App 3d 1287
Crane v Kentuchy (1986) 476 U.S 683
In re Carmaleta ( 1978) 21 Cal 3d 482
Mathews v United States (1988) 485 U.S 58

io. \ y (L 7

Pacific Gas & Electric Co v Zukerman (1987) 189 Cal App. 3d 1113
People v Baker (1954) 42 Cal, 2d 550
IQ

9

People v Barnett (1998) 17 Cal 4th 1044
People v Cooper (1991) 53 Cal 3d 771
People V Cruzo(1978) 83 Cal. App 3d 308

to

People V Elam (2001) 91 Cal App 4th 298

q
0

People v Fitzpatrick (1992) 2 Cal App 4th 1284
-fo
People V Froom (1980) 108 Cal App 3d 820

\ e>

People V Garcia (2005) 113 P.2d 775

\ 0

People v Lawley (2002) 27 Cal 4th 102

<?

People v Manriquez (2005) 37 Cal 4th 547
People V Middleton (1997) 52 Cal App 4th 19

11

People v Newton (1970) 8 Cal App3d 359

lo

People v Padila (2002) 103 Cal App 4th 675

(3

People v Partida (2005) 37 Cal 4th 428
People v

Saile (1991) 54 Cal3d 1103

People v

Salas (2006) 37 Cal 4th 967

People v Steele (2002) 27 Cal 4th 1230
People v Stoll (1989) 49 Cal 3d 1136

X

__

i

CASES

PA6&#

People v Tufunga (1999) 21 Cal 4th 935
People v Velez (1985) 175 Cal App 3d 785

I I

People v Watson (1956) 46 Cal 2d 818
People v Wright (2005) 35 Cal 4th 964
United Statesvv Dees (9th Cir 1994) 34 F 3d 838

1?

United States v Duran (9th Cir 1995) 59 F 3d 938

9

United States V Escobar de Bright (9th Cir 1984) 742 F 2d 1196
United States v Romm (9th Cir 2006) 455 F 3d 990

11

People v Bassett ( 1968) 69 Cal 2d 122
People v Rogres (2006) 39 Cal 4th 826, 282
Brady v Maryland 373 U S 83 10 LED 2d 215 (1963)

3,3,r,l£
\b

U.S v Itarusko 729 F 2d 256 (1984)
People v Hacket Cal App 4th (1990)
In Re, misenr 38 Cal 3d 543

n

In U.S Hamilton 107 F 3d 499

19

Strickland V Washington 335 US 162 (1984), H ft U(X SI ,

% -3U3

Kyles V Whitly 131 LED 2d 490
Ih Garton V Swenson 417 F Supp 697 (1976)

*5

People v Holloway Cal App 5th District (2008)
People v K|cott 4^ Cal App 3d 823
Miller V Terhune 510 F. Supp 2d 486

E.d.Cal (2007)

Coles v Poyton 389 F 2d 224, 226
People v Pitts 273 Cal Rpyr 757 (1990)
In People v Wende 600 P 2d 1071
Kyles, Supra, 514 US 419
Wiggins v Smith 123. S.Ct 2527 (2003)
Mickens v Tayloir 535 US 162 (2002)

Holms vso Carolina 126 S.Ct. 1727 (2006)
XI

3*
15

IS

TABLE OF AUTHORITIES CITED

CASES
U.S V Bagley 473 US 667, 105 S. Ct

PAGE NUMBER55

Washington v texas 288 US 14 (1967)

2 C

Miranda v Arizona 284 US 436
U.S v Colderon 127 F 3d 1314 (1997)

&

U.S v Mays 69 F 3d 116 (1995)

56 '

U.S v Rivera 900 F 1462 (1990)

3 i
J G \

U.S V Sanders 928 F 2d 940 (1991)
Smith v Robbins 528 US 259
US V Andrade 135 F 104 (1998)
STATUTES AND RULES
U.S Const.Amend..5,6,14
28 USC § 2254

(d) (1) (2)

3:

j

28 USC 1254 (1)

5

2 !

28 USC 1257 (a)
ESCA sec, 2253
California Penal Code § 26-4

11. ??, i fyjS’j

CALCRIM § 3428

i ]s> % 1
25,13

CALCRIM § 3425 & 3427

1

*7

2

Evidence Code Section 801 & 802
OTHER

La)

Fed. Rule of Evidence Rule 404 (A; ^ '

ABA Rules Of Professional Conduct, Rule 3.8 (D)
Rule of Law—Crim.

X
\&\

Law 412. 2 (l1), 412.2 (5)

t--AnLfjU^aB/ciJat^/c ASJosJah'os?

XII

E

■'

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

I etitioner lespectfully prays that a writ of certiorari issue to review the judgment below7.
OPINIONS BELOW

[xl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

^

_ to

[ ] reported at
; or,
[ 1 has been designated for publication but is not yet reported; or,
[X j is unpublished.
The opinion of the United States district court appears at Appendix__|2
the petition and is
[ ] reported at____________________ ___________
; or,
[ ] has been designated for publication but is not yet reported ; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix —V> to the petition and is
[ ] reported at____________ ______ ____________________ ; or,
[ ] has been designated for publication but is not yet reported ; or,
1X1 is unpublished.
The opinion of the ^
CdUy~t j?^ CALT’-f&fe/f/T-fi
ourt
appears at Appendix
— to the petition and is
[ ] reported at
i or,
[ ] has been designated for publication but is not yet reported;; or,
Xl is unpublished.
1.

to

)

/ (

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[Xl A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
C_____
, and a copy of the
order denying rehearing appears at Appendix C
[ I An extension of time to file the petition for a writ of certiorari was granted
to and including______
(elate) on
—____ . (date)
in Application No. __ A
STATEMENT OF JURISDICTION
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1). Rules 10-14 16
Rules of the Supreme Court of the United States;Rule 10 (a)(b)(C)

assess.;? tessiMis

the Constitutional and ( Federal and State) Statury Provision
Involved in Petitioner Ranteeses' s case.

Ptl For cases from state courts:
The elate on which the highest state court decided my
: „ case was
A copy of that decision appears at Appendix -T
[ ] A timely petition for rehearing was thereafter denied on the following date:
> and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on ______________ (date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 IJ. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Right of a State Prisoner to Seek Federal Habeas Corpus Relief is
Guranteed in 28 U.S.C § 2254. The Standared for relief Under "AEDPA"
is set forth in 28 U.S.C § 2254 (d) (1). The Sixth and the Fourteenth
Amendment they Guranteed Defendents to present his Psychiatric defense,
Right to due prosess of law, Instructed and permitted the Juey to consider
the Affirmative defense of Unconsciousness and the Involuntary
Intoxication from the prescrinrd medication CALCRIM § 3425 and 3427.
■^^is court has Jurisdiction to hear and decidd this Petition for Writ of
Certiorari under the United States Constitution, Article, Sec, Fifth,
Sixth and Fourteenth Amendment , 28 U.S.C §§ 2254 (d) (1).
The Jury Instruction on Unconsciousness Defense-A Rexognized Defense in
California. These points are Bases on Clearly Established Federal Law
and Cognizable by this court Under 28 U.S.C §§2254 (d)(1). A full and
fair hearing on those issues as required by Due Process Clause of the
Fourteenth Amendment, and Established Federal Law By the U.S (S.C)
"Section 2254 (d) (1) Applies " Provided [ That the State Court]
Determination was made after the Petitioner had a Full and Fair
Opportunity to Litigate the Issues".
The Fifth, Sixth and Fourteenth amendment it Guaranteed Defendents to
the Miranda Right, Discloser of Evidence, Brady Evidence. " Brady Rule
is not [Just] Discovery Rule, but is Rule of Fairness and Minimum Prosec­
utorial Obligation" Brady V Maryland 373 U.S 83,10 LE 2d 215 (1963)
Miranda V Arizona 384 U.S 436 (1966). The Sixth & Fourteenth Amendment
Guaranteed Derndents "Efective Trial & Appelant Counsel. Strickland V
Washington 467 U.S 1267, 104 S.Ct. 3562,Wiggins V Smith 123 S.Ct 2527.
Standared for Issuance of a Certificate Of Appealability is Clarified in
Miller

El Cockrell, 537 U.S. 322. 123 S.Ct 1029 (2003) the Substantial

Showing of the denial of a Constitutional Rights" Id 123 S.Ct At 1034.
citing Slack v.Mcdaniel 529 U.S 473^484 (200G(ft

STATEMENT OF THE CASE
For this second and successive petition
CONCISE AND DIRECT STATEMENT OF THE CASE
Superior court of California for the County of Solano
People V Ranteesi Case No. FCR201373. E.D No.2:10-cv-439-GEB-TJB.
Ninth Circuit No 12—16642. On Second and Seccessive Petition.
Superior Court of California for the county of Solano No.FCR331783

ii

E.D No 2:18-cv-541-KJM-DB. Ninth Circuit No.19-16108 .lead Case
In Ranteesi's Case the circumstances that led to his involuntary
Intoxication the Adulterated drugs Paxil,are without Ranteesi's Fault.
It was not foreseeable to him. However it was foreseeable to Yolo County
Sheriff Department where Ranteesi’s Wife Milia use to work the time of
the crime. The issues was a workman compensation, Workrelationship, and
it was work related injuries Ranteesi's wife Milia did suffer from.
Because

Milia was performing her scope of employment and it was part

of her work load she must perform, but it was foreseeable to governmen
agencies and Individuals whom they have a duty of care to perform.
Those Government agencies and individuals that they have a duty of care
toperform were negligent arid / or deliberate indifferent to the Human
Rights, Civil Rights, and the Justice the Citizens of this Great country
wanted to achive. Those negligent agerncvies and individuals mentiond
above where working for their own and special interest groups of people
Benefits and financial gain not working to perform their duty of care
as the citizens of this Great Country wanted them to do.
Paxil Drugs was prescribed by Doctor Constance who stated to Ranteesi
that "PAXIL" drug will make you Happy", But the doctor was prescribing
the Paxil Medication for financial gain not for the Merit of the drugs
Purpose. Solano No.FCS041357;E.D No.2:13-cv-01335-MCK-CKD. 9thCrCir
No. 13-16966. $ec BA—
4

On 2001 Case Title Tobin V Smith Kline Beecham 164. F Sup 2d 1278
U.S.Dist. Lexis 2195. The Medication Paxil was the Cause of Murder
Suicide of a Quadruplet member of Tobin Family. On 10/27/2010.

In the

USA TODAY Newspaper: Federal Prosecutors in Massachusette said Thursday
Pharmaceutical Giant Glaxo Smith Kline will Pay $ 750 Million to Settle
allegation that it Knowingly Manufactured and sold an Adulterated

Drugs

including Paxil. On July 3, 2012 Sacramento Newspaper; Glaxo Smith Kline
agreed to plea Guilty to criminal Charges and pay $ 3 Billion in fine
for over Promoting its
Here

antidepressant

Paxil for Unapproved uses.

California legislature did not mean to impose Criminal liability

on a defendants Like " Ranteesi" who Lacked guilty Knowledge of fact
essential to make the conduct criminal ( Please see California Penal
Code 26-4 Unconsciousness and Jury Instruction CALCRIM 3425 & 3427.
Also see " American Psychiatric Association DSM—5 tm Antidepressant
Discontinuation Syndrom, which is a set of symptom that can occurred
Ftaer an abrupt cessation ( or Mark reduction in does) of an
antidepressant medication that was taken continuously for at least 1
month. Symptoms generally begin within 2—4 days and typically include
specific sensory, somatic, and cognitive-emotional manifestation. Please
notice that the Paxil was adulterated during the 32 days in 2002 when
Ranteesi was taken it as prescribed.
Here the abrupt or reduction in dose happen because the Paxil was
An Adulterated drugs. All this happened without any fault on RAnteesi's

° ev- t.0v'

part. Here the Motion for Reconsideration (ECF No.8) and (ECF No.9)
in the Case No 2; 18—cv—541—KJM—DB of the U.S Eastern District Court
Of California . The evidence in those motions support Ranteesi's
act of Legally Unconsciousness at the time of the crime.
5

REASON FOR GRANTING THE PETITION
Petitioner is entitled Under the Sixth and Fourteenth Amensment to _
a new
psychologicai drsorder-paranoid System. This newly discovered evidence
m the motion for reconsideration (ECF No.8) and (ECF No.9) that he
recieved from the Federal Food and Drug Administaration (FDA).
Here Ranteesi was actualy innocence, and the PAXIL was the only
cause
of Ranteesi's mental state that caused him to became aggressive against
his wife without his fault. The involuntary intoxication from the
prescribed medication Paxil during the 32 days Ranteesi was on the Paxil
and during the time of the alleged crime,
here Solano County Superior Court of California did committed an error
of law by disallowing defense counsel through the defense expert
witnesses from establishing through their testimonial evidence,:

the

bases for their seperate and independent diagnoses of Ranteesi's Psychological disorder-paranoid delusional system which was " Caused by his
authorized Prescription use of Paxil and its documented side effects;"
Not like the In effective counsel claiming that the Paxil was in part
exacerbated by his authorized prescribed Paxil.
Here in RanteesiSs Case Ranteesi did not have any mental illness , because
this new evidence proved that Ranteesi was prescribed Paxil drug for
financial gain only as a massive and deep fraud committed by the Paxil
Manufacturer Glaxo Smith Kline (GSK).
Here Paxil Was directly and significatly caused Ranteesi's Mental Illness.
Here evidence code section 801 and 802 concerning expert opinion and
which, as the court of appeals wrote.
"... allows an expert to offer an opinion that is " related to a subject
that is sufficiently beyond common experience that the opinion of an
Expert would assist the trier of fact" and is " Based on matter...

6

perceived by or personally known to the witness or made known to him
at or before the heatring whether or not admissible, that is of a type
that reasonably may be relied upon an expert” in formong his or her o'.;i
opinion in according with evidence Code 802, the expert " May State on
examination the reason or for his (or Her) opinion and the
matter...
upon which it is based unless he or she is precluded by law from using
such reasons or matters a basis for his or her opinion.
Here in the law of California P.C 26-4 legally unconsciousness does
allow the expertswitness to state the basis of his opinion wich is the
involuntary intoxication from PAXIL.
See alsooP.C 25 , 28 under section 28 (a) it state in;part : ”...Evidence
!
of mental disease, mental defect, or mentaldisorder is admisssable S3
solely on the isssue of whether or not the accuseed formed the required
specific intent, premidated, deleberated, or harbored malace aforthought
when a specific intent crime

is charged ".

( Emphasised added.)

Ranteesi was discribed as telling the Pavaghadis that his wife had "
Taken off", that he did not know where she was but would kill her if
he found her, the statement is nonsensical as an indication of planing
activity before th'e killing given that petitioner was in constant
contact with his wife, knew precisely where she was , and had lived
with the knoledge of her affair and decision to leave himfor at least
one year, by excluding the highly probative details of petitioner's
mad delusions the very materials that proved thatthe was in fact
delusional and not just acting in jealousy and anger as the prosecutor
asserted-the erroneous ruling severely diminished the ability of the
jury to understand his defense to the proof of mental state in support
of the charged first degree murder. The

evidence was crucial to the

credibility of the expert opinion evidence on the issue of actual
mental state, and its exclusion^requires reversal of the verdict.

7

REASON FOR GRANTING THE PETITION
Petitioner is entitled under the sixth and fourteenth amendment to
a new trial in which the jury is fully instructed on and permitted to
consider the affirmative defense of involuntary intoxication.
1. Summary: Critical defense instruction were refused.
Petitioner requested instruction on the defense of Unconsciousness
(Calcrim 3425) arising from Involuntary Intoxication (Calcrim 3427).
This request was permised primarily on two testimony presented to the
jyry . the testimony of Dr. Shipko and petitioners own testimony.
Dr. Shipko testified on the side effects which can occur after
ingesting Paxil, which had been prescribed for petitioner and which he
had consumed according to the directions given with the medication.
Dr. Shipko went on to specifically link the psychoactive changes and
deteriorations which can be caused by Paxil to petitioner’s actual
condition shortly after the killing which had been memorialized

in

three hours of video taped questioning by the police. Dr. Shipko opined
that, based on his review of reports and the video taped interview of
Petitioner after his arrest, that petitioner was in a Paxil-induced
manic state as a result of an adverse reaction to his prescribed med;:
ication and was not in control of his responses to events.
Petitioner testified that when he was prescribed Paxil, he was
not informed of any side effects, and he had no knowledge of these
Dotential adverse reactions. He had taken a paxil during the afternoon
ft

before his wife arrived at their hornet ( In matter of Fact Ranteesi
was knock

unconseciuss on the family room floor not a sleep)

from

Paxil Involuntary Intoxication .")].. -Jdc
Petitioner described the origin of the argument with his daughter,
but he described the fight with his wife up to a point where he smashed
the phone in anger on his truk,Immediatly thereafter , petitioner
described himself as having" gone insane" He had " Lost it" and had
8

not acted with awareness of his action,
Consistent with a person who
has no guilt knowledge of his circumstances or actions, Petitioner
stated that he had waited for the police while standing next to his
wife's body because he wanted the police to
the court denied the proposed instruction.

-.

tel him what happened."
( RT 760-764, 820;823) No

other instructions were provided to the jury which guided their
consideration of the substantial evidence offered on petitioner's Involuntary intoxication from Paxil and his non-volitional actions stemming
from it*
2. CALCRIM 3425 and 3427 Should Have Been Given (U)n This Record,
A trial court’s instructions to the jury have always been recognized
to be a fundamentally important stage of the criminal proceeding. It
is of course well settled that " (a) trial court must give instructions,
even in the absence of a request,
on all general principles of law

"

closely and openly" connected to the facts to the facts before the
court and which are necessary for the jury's understanding of the

case"

((mathews v. United Sta_tes ) (1988) 485 U.S. 58,

63; People V.Elam (2001)
91 Cal. App.4th 298.) In determining whether
the evidence is sufficient
to warrant a jury instruction, the trial court does not determine the
credibility of the defense evidence as that is exclusively the function
of the jury. Any doubt as to the sufficiency of' evidence to justify
submission os a defense to the jury must be resolved in favor of the
accused.

( People V Tufunga (1999) 21 Cal 4th 935,944 People V Salas

(2006) 37 Cal 4th 967. .
A reviewing court determines independently whether the record
contained substantial evidence to support the defense instruction.
(People V Manriquiz (2005) 37 Cal 4th 547,581; United States v. Duran
(9th Cir 1995) 59 F. 3d 938,941.) Because of the importance
accorded
the issue, however, a reviewing court will evaluate the evidence on
(People V
9

;

Unconsciousness is a compleate defense to a charged crime and would
apply to petitioner if ,; though performing the physical acts which
resulted in the death of hid wife, he did so "without being conscius
thereof .

(See.26 .section Four) As has long been recognized ,

unconsciousness, in the sense described in the Penal Code

"need

not reach the phsysical dimensions commonly associated with the term
*v

(coma, interia, incapability of locomotion or activity ); it can .
exist-and the above rule can apply-where the subject physically acts
in fact but is not, at the time, conscius of acting."(people v Newton
(1970) 8 Cal.3d .359,376-377.) An unconscious act is not deemed
volitional becauseit is not the product of mentalawarness ass "thefe
is no functioning of the conscious mind." (People v Form (1980) 108
Cal.App. 3d 820,820, 829)
This defense is available

to a person whowse lacke of awarness

arises from involuntary intoxicaation,just as it might from a blow
to the head, somnsmbulism, epiliepsy.or oather organic disorder , so
long as long as the intoxication arises "without any fault on the
intoxicated person. " (People v.Cruze (1978) 83 Cal. App.3d 308, 330.)
Contrary to the prosecutor's assertion in opposition to tahe proposed
instruction, intoxication resulting from prescription medication which
has been taken as prescribed is involuntary intoxication under the
:aw because it is without fault.(see e.g., people v Baker (1954) 42
Cal.2d 550 (medication for epilepsy presented factual issue of inv­
oluntary intoxication); People v Garcia (2005) 113 P.2d 775
(insulin-induced hypoglycefmia may be the basis for the j ury to
consider an involuntary intoxicationdefense). Taking prescription
medication in accordance with a doctor orders can only be deemed to
to fall within the ambit of the defense under California law because

10

there can be no concept of negligence in following the order of a
prescribed physician.

(Cf., Peolev Velez (1985) 175 Cal App.3d 785

796: A person taking marij uana which has unknowingly been altered
with PCP is negligent and unconsciousness defense is not available.)
In Support of his claimof unconsciousness, the defense provided
expert testimony in addition to petitioner's own description that
his altered mental state affected his ability to form any of the
mental state affected

his ability to form any of the mental state

required for charged crim. The court appears to have concluded that
Petitioner's failure to described himself as "unconscius" to Dr.
Shipko was a basis to reject instruction on the point.
expressed

( The court

'a little suprise" at the psychiatrist's testimony before

making the ruling rejecting the instructions (RT 4 823) But such a
conclusion fails to correctly assess the actual testimony in support
of the instruction, Dr. Shipko testified that he never asked Petitioner
whether he belived himself to have been unconscious during the beating
of his wife; he asked no such question because Petitioner's ability
to describe

the event in any comprehensible or credible way was

non-existent. Thus, even if petitioner could be considered capable
of knowing what " unconsciousness" meant under the law, he did not
preclude any such conclusin on the part of Dr. Shipko. Instead ,
other evidence reviewd by Dr. Shipko,which is to say that his actions
were not driven by a mind which could act volitionally.Petitinner 's
description of his mental stste-describing himself as having "lost it"
and

"gone insane" during the argument as his wife

came at him on

the street-is consistant with Dr. Shipko's opinion of his specific
mental state.

L \

11

the two testimonies are also consistant withe

mentalstate which results

fromorganic process induced by Paxilin persons who take the drug as
Prescribrd but

are afflicted aby dangerous sided effects which compel

them to act aggressively against selr or other

without Conscious co-

trol over their impolses. Moreover, as Petitioner asserted and Dr Shipko
corroborated, Petitioner's intoxication was blamless since he had no
prior warning

that these symptoms could occur and had taken the pre-

scription with proper timing and dosage.
3. The failure To Instruct On An Affirmative Defense

Was A Prejudicial

Dinial Of Petitioner 's Rights To Jury Trial And To Due process Of Law.
Petitioner submits.that the court's denial of instructions which
presented unconsciousness permised

on involuntary intoxication with

Paxil implicated his federal constitutional;rights under the Sixth and
Fourteenth amendments to dur process and present his defense to the
jury for determination. As the United States Supreme Court has recog­
nized ,

"as a general proposition , adefendant is entitled to an inst­

ruction as
evidence

to any recognized defense for wich there exists sufficent
for a reasonable jury to find in his favore .'* Mathews

-v United Stat,es . supra, 485 U.S. 58, 63; People v Salas (2006)
37 Cal . 4th 967, 982-983) As stated by the Ninth Circuit in Bradley
v Duncan (9th Circuit . 2002) 315 F.3d

10991,

1099; "(t)he state

court's failure to correctly instruct! the jury on the defense may
deprive the defendant of his , due process right to present a defense .
This is so because the right to present a defense' would be fempty if
it did not rntitail the further right to an instruction that allowed
the jury to consider the defense."

12

Further, if the defense theory

has a basis in fact and law ,

the

failure to give a Proffered jury instruction on that theory is per se
reversable error unless other instructions, considered in their entirety,
adequately cover the defense theory. United States v. Romm (9th Cir ,2006)
455 F. 3d

990; United States v Dees (9th Cir. 1994) 34 F3d 838, 842;

United States v. Escobar de Bright (9th Cir.

1984) 742 F. 2d 1196,

1201-

1202.) Here, no other instructions told the jury it could consider
Petitioner's involuntary intoxication amonting to unconsciousness as
abasis to acquit him of the charge offrnse. The jury had no theory by
which to considert that petitioner was acting withot volitional control
as he had testified

and his expert postulated, and no instruction

which made clear to them that petitioner's involuntary intoxication
rendering him unconscious and without volitional control could result?
in a reasonable doubt as to his guilt on the charged offense, Instead
under the instructions as given, Petitioner's actions could only have
been deemed goaJidirected,as the prosecutor argued, and the only
remaning question was fhe^degree to attach to his acts.
Moreover, only GALCRIM3427's a first sentencee (' Consider any
evidence that the defendant was involuntary intoxicated in deciding
whether the defendant had the required intent (or mental state) when
he acted.") advised the jury that Petitioner's intoxication by Paxil,
if belived, could be ; considered in deciding betwwen first and second
degree merder, since the distinction rest on a subjective state of
mined and is not related to provocation or its absence.

( People v.

Fitzpatrick (1992) 2 ,Cal .App, 4th 1284,1295; see also People v Padilla.
(2002) Cal. App.4th 675 ; People v Middleton (1997) 52 Cal App 4th
19,32) Although the jury did recive instruction pursuant to CALCRIM
3428 on the possible effect

mental diseas, defect or disorder" on

petitioner's ability to form the required intent,

these instructions

were not applicable to the defepse offered by petitioner's claim of
13

unconsciousness by involuntary intoxication. Unconsciousness arising
from involuntary consumption of prescription medication may be caused
by altered brain chemistry, but it is a temporary condition rather than
" a mental deseas, defect, or disorder.” Thus the jury recived no
instruction whatsoever on how to consider Dr Shipko's testimony and
its

implication for the determination as to degree.
REASON FOR GRANTING THE PETITION

to^new^rtaT^n1^!?- Unier^he Fifth,Sixth ,
to a new trial m failing to Miranda him before
of this case is that the Fraud committed by the
did cause Vacaville Police Department's Failure

and Fourteenth amendment
questioning! The Fact
Paxil Manufacturer (GSK)
to read the Miranda.

Summary: Miranda Right was denied, because the police were incompetent
to determined that Ranteesi was Intoxicated from Paxil, and Ranteesi was
the victim of Medical Malpractice because of Paxil, This Fact do support
that Ranteesi's hands was lifted up in the air; Ranteesi did not make
an attempt to escape; Ranteesi was standing next to his wife (The Victm)
Not knowing or comprehanding what had happened; Ranteesi was waiting for
the police to arrive and to explain to him what his son Tony Saying,
Look what have you done”.
This new evidence shows that Vacaville Police where incompetent to
investigate Ranteei's Incident and the crime seen.
This newe evidence which contained in the motion for reconsideration
(ECF No. 8) & (ECF No.9) That Ranteesi did received from the Federal
Food and Drug Administration (FDA) by the excercise of Substantial Dili­
gence will prove that the Paxil was the only cause of Ranteesi's act
of Unconsciousness at the time of the crime; Without any fault on him
because the Paxil was an adulterated this made Ranteesi exhibiting the
symptoms of intoxication and the Symptoms of the Withdeawal from Paxil•
The Failure to read the Miranda Right by the incompetent Vacaville Police
They were Incompetent to investigate and prosecute the negligent party
whom they caused Ranteesi's Legal Intoxication from Paxil, and the denal
of the presence of an attorney during the custodial questioning did
prejudiced Ranteesi at trial Under the Miranda Right , due process of
law Under the 5th, 6th , and fourteenth amendment to the United
States
constitution See Supra, Price v King, Supra and Due Precess of law.
This Should prove that Ranteesi is and Was actually Innocence of the
Charged Crime, and he was the victim of Medical Malpractice due to Paxil.
Involuntary intoxication.
14

REASON FOR GRANTING THE PETITION
Petitioner is entitled under the Fifth, Sixth, and Fourteenth Amedment
to a new trial because the Prosecution and the police were incompetent
to prosecute the crime due to a massive and deep Fraud by the Manufacturer
Paxil, and the prosecution team intentionally and negligently did
withheld evidence favorable, and prove that Ranteesi was the victm of
Medical Malpractice from Paxil Manufacturer Glaxo Smith Kline (GSK),..
Summary; Exculapatory evidence was withheld, due tb the Incompetency of
the Vacaville Police and Solano County Prosecution Team.
1. The prosecutor-,thad acces to police reports and courts dicisions
on Paxil serious side effects, They knowing that the proper use of Paxil
as prescribed had caused Homicidel and Suicidel. The. Prosecutor did not
present the toxicology report to the court, or to the i

defense of the

Unconsciousness defense due to the Involuntsary Intoxication from Paxil.
The prosecutor knew of the(FDA) reports and other published information
on the serious side effects of Paxil See EX D,F. The toxicology report
about the Ranteesi*s Blood Drawn the same day of his arrest should have
been disclosed duringdiscovery to the defendaants attorney. The Physician's
desk referance (PDR) stated that two of the several serious side effects
are Homicide, Suicide, which they are an aggression against self or
others. See Dr Shipko's testimony—RT 767—768,794—796. Constitutional Law
according to Brady v Maryland 373 US 83,10 LRD 2d 215(1963), Requires
full disclusure during discovery and every other phase of a criminal
trial thattall information available to the police and prosecutor be
shared with the defens, brady, supra, states " Suppression of favorable
evidence violates due process of Law" The Paxil In Ranteesi's Blood
would have proved that he was in fact under the influence of his
prescribed Paxil medication, and the amountdisaprove any allegation
of voluntariness of that intoxication ( Here the Discovery of the New

*2y-c,0"
evidence which it contained in the motion for reconsideration (ECF No.8)
v &Y-C, 0°
and (ECF No. 9)
that Ranteesi recived from the (FDA) by the exercise
15

of substantial Diligence will prove that the Paxil was the only
cause of Ranteesi's act of Unconsciousness at the time of the crime
as a result of a massive and deep fraud committed by the Paxil Manuf
facturer (GSK). this is as a negligent by the Vacaville police and the
Solano Prosecution team.
Here the Vacaville Police Investigators and Solano County Prosecution
team (DA) committed an error of law when they prosecuted Ranteesi
while he is the victim of medical Malprctice because of Baxil Drugs
The toxicological evidence is material to Ranteesi's guilt or innocene
particulary when faced with a specific intent crime as herein^arid
would have done much to aid his attorney in this argument for the Legal
unconsciousness due to involuntary intoxication defense before the jury
A
In U.S v Starusko 729 F2d 256 (1984). " Brady rule is not just discovery
rule, but is rule of fairness and minimum prosecutorial OBLIGATION."
2. Even when a defendant doesn't request evidence because he does not
knew it exists. See People v Hacket Cal App 4th (1990).
defendant's failure to request favorable evidence dose not leave
government free of its obligation to disclose such evidence to defendant"
3. The prosecution raised a prior unaproved all;legation of demestic
violance aganst Ranteesi during his trial,

but suppressed a photograph

of Milia taken on 11,11, 01 it is clearfrom the photograph that Milia
was not injured nor there is any blood on it , but it was fabricated . !
Three situation in which a Brady, Supra claim might arisis despite
a defendant's failure to request favorable evidence are:
(A) where previously undisclosed evidence

reveld that the prosecutor

xnterduced trial testimony that knew or shpuld have knew was prejured;
(B) where government failed to accede to a defense request for disclosure
of some specific type or kind of exculapatory evidence; or

16

(C) where government failed to volunteer exculapatory evidence...
In re Misener 38 Cal 3d 543, Those courts held:
Government supression of evidence favorable to accused violated due
process if that evidence is material*'. The failure on the part of the
prosecutor to provide the defense with copies of the toxicology report
on the blood test showing the Paxil in Ranteesi’s system , and the
photograph evidence of the uncharged prior act is material to the guit
or innocence .
4. The Paxil side-effect the prosecution withheld are meterial she
did in order to olster her argument to get the judge to deny Ranteesi
the defense of legal Unconsciousness CA P.C 26-4.
-* • The multiple records/ documents and trial courts did found Paxil t
to be Responsible for aggression against self and others

commiting

Homicidel and Suicidel.
A) Vacaville POLICE VHS 3 hour interegation of Ranteesi shoows that
Ranteesi was under the influence of Paxil and he was experiencing the
Paxil side effects.
B) Paxil Lawsuit in Wyoming and California see Ex-#
G) People exhibit 19- A1 Harbi's Stoey is what Ranteesi stated was tr
not delusional.

So their is no other evidence of delusional at the

time of the crime which is only the Paxil that Caused it.
E) Toxicology report on Paxil exist on Ranteesi*s Blood streem only
no other drugs or alcohol exist in Ranteesi's Blood.
F) Dr Aean the peosecutor's witness which:she stated that another
person had committed murder while taking Paxil See CRT 185-190
G) The prosecutor knew that the (PDR) indicated that Paxil do cause
aggression a bove the norme.
H) the prosecutor

moving

Paxil which it is A

to deny the Unconsciousness defense from

recognized defense in California.
17

I) The (FDA) knew of these several and sever side effects.
J) Glaxo Smith Kline admitted to the severe side effects which is an
aggression to self and others committing HOmicidel and suicidel
See Dr Shipko's Opinion at Rt 794-796. USCA Amend 5 & 14; ABA Rules of
professional conduct Rule 3.8 (D), To prove a brady claim...

1 Suppre­

ssion by the prosecution 2 of exculapatory evidence 3 Material to the
issues at trial or sentencing."
6) The prosecution has a duty to get favorable evidence from another
government agency.: In U.S v Hamilton 107 F3d 499 " Prosecutor cannot
get around brady rule by keeping himself or herself in ignorance of
exculapatory evidence".
Prosecutorial misconduct-that since the prosecutor has withheld
evidence presented at the competency

Hearing See Dr Aean CRT 185-190

she testified that another person who had taking Paxil murdered his
wife. The Prosecutor withheld evidence . as Follow:
A) during competency hearing doctors testified that Ranteesi had no
memory of 8, 6, 2002 See CRT 102, Memory lost is also side effect of
Paxil See Ex D,F and see Dr Shipko's Opinion In Ex Jr
B) Dr, Aean testified other men killed their wives because of Paxil
See CRT 185-190.
C) Dr. Hubert Steven Paxil is a defense See CRT 168.
D) The Prosecutor it is a defense "PAXIL" of insanity CRT 178
E) The toxicology report See RT 764-768.
F) the Tape recorder of the Transporting Officer See RT 742 " I Can't
Breath, I am Hot and I need Water".
G) The three hour VHS tap recorder at the Vacaville Police station
see Officer J Curtis Ex f. 112-116.
H) FDA reports on Paxil Dr. Shipko's Opinion he explains the Akathasia
and Homicide See RT 767-787 & 794-796.

I) Paxil side effects from Glaxo Smith Kline
J) Prosecutor’s At the competency trial Paxil side effects from the
PDR see CRT 131.
K) Lawsuits against Glaxo Smith kline (GSK) in Wyo. Where Paxil was
found to be responsible for homicide and suicid.
L) California Lawsuit- paxil withdrawal symptoms att Donald Josef Fabor
& Dr Shipko’s testimony at RT 767-768.
M) My wife's boyfriend A1 Harbi, Was an Iraqi Assassion see RT 64<T
N) The Paxil Caused Ranteesi's the Memory loss see RT 224.
0) The prosecutor’s Motion in limine which in effect denied Ranteesi
his only defense under California Law, also served to keep put most of
the important information raised and argued during the Competency
hearing trial which was wholly out of the presence of the jury and
therefore All of information was kept from the jur’s consideration.
That-excluded much of the side effects information and all Dr.Aean’s
testimony.
Those facts would have brought about a much different outcome along
with the disallowed foundational opinion testimony of ,the doctor's
who did testify at Ranteesi's trial ( Shipko, Puraiance & Data)
Rt 600.
These incidents of prosecutorial misconduct's and suppression of
evidence under Brady, Supra, and other cited cases above were
Uncinstitutional and Prejudicial to Ranteesi's right to fair Trial
and fair and impartial jury under the 5th,6th & 14th Amendment.
Ranteesi was denied any defense tom the charge crime of first degree
Murder a specific intent crime as argued above.
mi

.

,

.

''

J

*£:cJ£COTered evidence in the motion for reconsideration (ECF No 8)
and (ECF No.9) should prove that Ranteesi is actually innocence of the
Charged Crime ; and he was the victim of Medical Malpractice From Paxil
19

REASON FOR GRANTING THE PETITION
Petitioner is entitled under the sixth and fourteenth Amendments
to anew trial in which he can present a defense is the right to have
an expert witness on paxil Side effects in Favor of the defendan.
1. SummaryDefense expert witness was Prtevented to testify to
to Ranteesi's Mental state at the time of the crime that it did
arosed and caused by the involuntary intoxication from the Adulterated
Paxil. The fact of this case is that the fraud committed by the Paxil
Manufacturer ( Glaxo Smith Kline) (GSK) did caused the expert witnesses
at Ranteesi's jury trial to become deceitful, Fraudulent, and they
Misrepresenting the facts and intentionally and/ or negligently
withheld evidence about the effects of the antidepressant^Medication.

The expert witnesses fraudulently misdiognose Ranteesi's Mental
illness at the time of the crime. So they can relief the negligen
ones whom they caused Ranteesi's Intoxication to get them relief
from Civil and criminal Liability, and Upon and beyond the wrong
doing help convict the victime of the Medical Malpractice and the
" Product Liability" and relief the Negligent ones Like the docto
who prescribed it and the Pharmacy who sold it and the Manufacturer
who Manufactured it and the Federal Food And Drug Administration
whom they approved it without an adequate warning.

The discovery of this evidence which it contained in the motion

v£Y~C.p"
for Reconsideration (ECF No. 8) and (ECF No. 9) do support Ranteesi's
exhibiting the side effect of Paxil at the time of the crime. This
clearly shows that,the expert witnesses testimony at the Ranteesi's
trial was fals, fraud, and fabricated and they were misrepresenting
the Facts

that Ranteesi was Under his prescribed medication that
20

\

That Caused him to act Legally unconscious from the Paxil Intoxication
because it is without any fault on Ranteesi's Part and in fact he
was the victim of Medical Malpractice because of Paxil Drugs.
This Prove that Ranteesi was and is the victime of Paxil and those
expert witnesses mis conduct and fabrication of the facts of what
caused Ranteesi's act of violance against his wife that led to the
lost of her life and the distruction of Ranteesi's Family.

Here Ranteesi was exhiniting the side effects of Paxil at the time
of the crime,
First, Tony Rantisi ■? Terstif ied that at the time of the crime. See
Reporter Transcript No. 313 Line 19-21
A

The phone calling and the murder all happened like the same time.

So it is not one after the other."
Second, Ranteesi testified that " I lost it did not realized I did it
and Don't remember I
Here the only

had became totally

reason Ranteesi's Lost of

insane at the time of the Crime.
his memory because of the

Unconsciousness state of mined caused by the Paxil Drugs.
Third, when the police arrived Ranteesi's Hands was lifted up in the
air; Ranteesi did not make an attempt to escape; Ranteesi was standig
next to his wife "the Victim" not knowing and comprehanding what
had happened,

but he was trying to make

his wife,

he could not move his hands or his arms at all.

but

the sign of the cross over

Fourth, the 15 Minuts tape recoeder with the police officer who
transported

Him from the house to the police. Station and to the

hospital where they drew his blood and Paxil was the only drugs
was found in his blood stream. See Toxicology Report at RT No. 764—768

n

Fifth, the 3 Hours (VHS) tap investigation at the Vacaville Police
Station.
Sixth, Many studies shows that Paxil side effects causes suicidal and
Homicidal which is an aggression against self or others.

The fact of this case is that the fraud that committed by the Paxil
Manufacturer (GSK) did caused the expert witnesess to become very
Deceitful, Fraudulent, and they Misrepresenting the fact and
misleading the court. Therefore the court

convicted the victim

Ranteesi of medical malpractice not the negligent party whom they
caused Ranteesi's Involuntary intoxication without any fault on Him.
Here the expert witnesses violated Ranteesi’s right to present his
defense and the experts intentionally and negligently defrauded the
court and caused the court to convict the victim instead of the guilty
one who caused Ranteesi's Intoxication without Ranteesi's Fault .
Because the doctors Like Dr Datta he was a court appointed Psychologist
working for the Youth Facility of Solano County. This Clearly violated
Ranteesi's right Under the Fifth, sixth, and fourteemfh amendment to
the California and

United States Constitution.

The denial of expert witnesses on the side effects of Paxil drugs
prejudiced Ranteesi to afair trial and a fair appeal that issue

would

have raised in his direct appeal not raised by his appeallant"counsel
would have made a difference in California state courts and a different
result would have accured given all the fraud commited by the expert
witnesses, Actual Prejudice resulted in the deniel of his
appeals in the eCalifornia courts and in the

2%

Federal

direct

courts

REASON FOR GRANTING THE PETITION
Petitioner is intitled under the Fifth, Sixth and Fourteenth
Amendment to anew trial in which he can have effective assistance of iTrial
and AppeallantcGounsels bfailure to investigate various issues crucil
co hi
defense and Knowingly undermined Ranteesi's defense of Cal P.C
26 4 unconsciousness right to fair trial and fair and impartial Jury
due process of Law Inforceable against the States Courts.
Summary: Effective assistance of counsel was denied.
The fact of this case is that the fraud committed by the Paxil Manufcturer (GSK) did caused the trial counsel to became ineffective and
Incompetent to defend the Defendants who is Intoxicated was without
fault from the antidepressant Medication Like Paxil..
Ranteesi was denied his constitutional Protection of his rights
to due prosess of law in having effective assistance of counsel befor
and during his trial garanteed under the 5th, sixth, and Fourteenth
Amendments; Strickland v Washington 335 US 162 (1984, Kyles v Whitley
131 LED 2d 490) As Follows:
1) any reasonable attorney should have investigated the following isssues
A) The A1 Harbi Information/ issues, see People EX-19 at the Jury trial
Milia Wmrked in the jail while A1 Harbi was incarcer ated in the jail
from 4/26/2000 to 12/21/200- See Rt 647-650, this when she began her
illicit relation ship with him and see Vacaville Police Officer J. Curtis.
B) counsel did not investigate Paxil side effects See (FDA) reports,PDR
discriptions and Dr. Shipko's Opinion AT RT 767-787.
C) The Lawsuits against (GSK) over Paxil in Wyo & California,
In Strickland, Supra, the Court wrote:
"In assessing the reasonableness of attorney's investigastion,

court

must consider not only quantum of evidence already knows to counsel,but
whether known evidence would lead reasonable ayttorney to investigate
further". Ranteesi belive that he did not recive a eerdic worthy of
confidence given the number and severity of deficiencies in trial
counsel's performance. She simply didn't do her due
diligence.
23

2) Defense counsel had a duty to carfuljy investigate the side effects
of Paxil in this case since these were crucial to Eanteesi's defense
to the charge of first degree Murder, Specific intent crime, The Paxil
®-i-de effects were the bsasis for Ranteesi1 s Only defense.
3) Petitioner Lawyer,Nancy Dillon, Unresonably acted by calling expert
witnesses in contridiction of the legal Unconsciousness from Involuntary
Intoxication. Dr Shipo was an expert on his own patients not an expert
on Paxil Users in general, Dr. Purviance and Br. Datta testified that
Ranteesi had a Permanent mental Illness and the Paxil had nothing to
do with the crime, this testimony ellicited by counsel and it is False,
and fatally underminedRanteesi's Paxil defense, while she wrongfuly
mixing the diminished Capacity theory defense with the Legally Unconsciusness defense BA P.C 26-4 because of the Paxil Intoxication was
without Ranteesi's Fault or knowledge ,Negligent,miss,and without anything.
4) The Limited time and money the Public defender is allowed to have
from the government is not sufficent to take a second and third Parties
Guilty,Like the Manufacurer of Paxil , The doctor Who Prescribed the
Paxil, the Phamacy whom they sold it and the FDA whom they approved

it.

5) Defense counsel objected to the Toxicology report, which undermined
Ranteesi's defense theory of Unconsciousness, Counsel should have asked
for the toxicology report to entered it into evidence, insted she object
to it so she can help prove that Paxil Only was in Ranteesi's Blood
and that level of Paxil in Ranteesi's Blood is within the PrescribedDosege.
In Garton v Swenson 417 F. Supp. 697 (1976) " OiSCE Petitioner has
shown that his attorney's breac h of duty has caused the absence of
admissable evidence which would have been helpful to his case, he must
bw garnted a new Trial..."
6) A Conviction for first degree murder is not possible for a defendant
such as Ranteesi rising and Proving
g the defense of legal Unconsciousness
'24

due to Involuntary Intoxication as Mueder is a specific intent crime,
7) The Law and Fact in this case states that an Involuntary Intoxicated
person in general could not be found guilty of first degree murder
but rather not guilty . Evidence Bode §§ 801,802 , CALCRIM §§ 3425,
3427. In Pemple V Holloway CAL APP. 5th Dist. 2008) Defendant who claimed
defense of Involuntary Intoxication, who knew or had reason to anticpate
that his use of prescription medication could cause Intoxication affects
was adetermination for the Jury to decied.

defence counsel use the unacceptable

defense theory of diminished

capecity CA P.C § 28 is not applicable to the legal Unconsciousness
defense P.C § 26 4 and CALCRIM 3428 is not applicable to CALCRIM 3425
and 3427. Ranteesi at the time of the crime is

not conscious of acting

See 194 Cal Reporter 633, and the People v Scott 146 Cal .App 3d 823.
Ranteesi is actual conduct and mental state fall within P.C § 26, and
therefore the Judgment of conviction of first degree Murder Shouldgefi^argsd
Reversed. Defense counsel should have Presented Physiocological and
bio-chemical experts testimony Please see Miller V Terhune 510 F Supp
2d 486 (E.D.Cal, 2007)

I^
ice &r- c-P*

'} i

. Sec (t Lf. ffb SJ a„j
'7 . The
X-

m-jiorj
-te'wthf (-T

INEFFECTIVE ASSISTANCE OF COUNSEL SUPPORTING FACTS
(1) defense counsel did not investigate ( Milia's Lover) story he spent
time in Yolo County Jail ( from 4-26-200 to 12-21-200) also see Ex C
Nor Police report by Officer J Curtise See Ex C and RT 647-650.
she presented expert witnesses

. Then

Like Dr. Purviance see CRT 24, and Dr.

Datta, whom they claimed that Ranteesi's statement about his wife was
false, see EX-f^fand RT 647, CRT 40-41,

178,

189—190 where Dr. Aean said

that some one else killed his wife because of Paxil drugs.
(2) Counsel did not provide the 3 Hours VHS police report & Investigati
see LDe# Pf33CG report 0fficer

Higby Ranteesi Never hit his wife and
25

(4) At the Marsden Motion CRT 237 Ranteesi Said Paxil Defense Only.
(5) Dr. Camille LaCroix's

recomendation to get Ranteesi*s Record from

Dr. Constance office the one who Prescribed Paxil for Ranteesi.
(6) Dr. Datta Was not an expert on the " Culture of Ranteesi see Rt 682
Nor he is an expert on Paxil Intoxication.
(7) Dr. Shipko is an expert on Paxil But he is not an expert on Police
reports see Rt 791,787-98.
(8) witnesses had testified to the Paxil Side effects See Rt 364-65,375
(9) the Judge at Rt 821-23 Said that there was no evidence to grant the
Unconsciousness defense, this is due to Counsel Failure And Ineffectivness.
(10) Mirphy testify at RT 203-211 Stating that he did not see Ranttesi
hit his wife At RT 210 the Prosecutor said he did . at RT 938 Dr Ceisler
did not Testify At RT 496.
(11) The prosecutor at RT, 764 65, 826-28 Misled the defense counsel and
told her youy don't need the toxicology report and she even asked to
dismiss officer Humbert the one who issued the 2011,Demestic violence
report against Ranteesi Unjustified citation.
(12) At Rt 190 a Certificte for weapon on the front of Milia's car seat
Rt 251 Rachal Stated that she sat in front seat of her mother car
No question about " Witnesses Credibility issues".
(13) At Rt 329 U.S Supreme court Case Was Applicable to my defense.
(14) At Rt 633. Ranteesi did say to the Doctor That I Snapped, Blacked
out, and I .can't Remember"

The prosecutor claimed that Ranteesi never

said he blackdout, People v Pitts, 273 Cal Rportr 757..No Liability to
strike foul....
(15) Counsel should have objected to the Modification of

§ 521 See

RT 730. This is A Post Facto Law violation of the constitution.
(16) Ranteesi told the police " I am thirsty, 1 need Water and I canot
breath this is a side rffrsts of Paxil Se RT 767-787 and RT 33,35,39.
26

(17) Rt 759—60 Counsel stated " He wouldn't be guilty period" RT 742
Supports Ranteesi's Claim of Legal!Unconsciousness due to Paxil,Drugs.
(18) At Rt 798 Ranteesi testified that the 11—11—01 incedent
was a
lie on Milia's part see RT 827, Motion for discovery of the Photo
that
shows there where no marhs on it or blood.
(19) At Rt 822-23 Counsel stated that Ranteesi didn't recall but I said
I didn't recal, I Lost it. and I became insane"
At Rt 823 the Judge stat
that " Dose not remember what happen does
not justify Unconsciousness
See Holloway , Supra ”.. Medication could cause intoxication effects was
for the Jury...."
(20) At Rt 742-43, 825 Counsel should have asked for the not guilty

/

verdic See P.C 26~4.
(21) Homicide by Paxil see Ex- D,E,F,G and a letter from Tony Hudson.
(22) counsel withheld evidence from the court, and the jury that Ranteesi
was rambling at the time of the crime, He Heard his mother voice calling
his wife's Name Milia, and seen the house faling and he try to make the
sign of the cross over his wife but he could not move his hands it was
like some one was holding it with force, he was in a Disinhibition stat
of mined and Unconscious of it see officer R. ELM LD 193 and See
officer Curtis s'.heastated That Ranteesi was sleeping on the rug prior to
the crime In Matter of Fact Ranteesi was Unconscious from Paxil,
(23) At Rt 427 the court questioned: Well it's not offer for the truth
of the matter stated , only to explain his state of mined is that
correct," defense counsel replied "Yes". This is a fraud By the court
and the defense counsel to convic the victime of Paxil Intoxication.
(24)if At Rt 348 Rachal's testimony-counsel did not croos examine her.
(25) Defense counsel didn't croos examin Denise Hall

See Davis

supra At Rt 350-51. this witness statement inconsistent since Milia
do not live in with me at the house Milia Did Move Out of
the hous.
27

a®

(26) At Rt 843, Morall Testified that Ranteesi said " I Killed my wife,
this is make no sense Milia death was at 17:42 Morall Conversation alle
ged to be at 17: 27.
(27) Tony & Rachal said I said " Oh well and it's over" see Officer M.

\

Lydon at LD # 358 where Rachal was Crying Uncontrolably see Officer^ R.

Elm

Ranteesi was Rambiling he was not in his state of mined and he could

not have made any conversation with no one at all.
(28) Counsel stated to Ranteesi that she souldn’t use the Paxil defense
and I have to plead not guilty by reason of insanity but this defense do
not apply to intoxication from Medication See P.C 26—4 Unconsciousness.
(29) People v hackett Cal App 4th (1990) Prescription halcion and Xanax
Cause Disinhibition, So Paxil See RT 778 and Dr Shipko RT 767-787.
(30)At Rt 46 the Police did not see Morall standing next to Ranteesi see
gt 500.
(31)

Officer J Higby LD 135 McCamy stated I was not angry or aggressive

(32)Defense counsel withheld from the court and the jury the fact of that
I had four wounds on my legs, and I was Rambling at the time of the crime
that I believe that the house was falling down see Ex f pg 1 Officer R.
Elm, LD 193, Officer Curtis Confirmed That I was sleeping on a rug just
prior to Milia s Arived at the House In Fact I Was Unconscious from Paxil
(33) At Rt 427 the court questioned: Well it's nopt offered for the truth
of the Matter stated, only to expplain hid state

of mined, is that correct

Defense counsel replied: "Yes". This means that there were no defense
witnesses to support this crucial state of mined evidence since the court
had already disallowed the fundational testimony of the expert witnesses
due to the motion in limine- See Ex £, Pg # 2£„-In Montez v Superior Ct
10 Cal. App 3d 3&3, 351 ( 1970), The court ruled:
" the finality of the court's remarks in the context of the witnesses
testimony demonstrates that the court had clearly rejected the entire
28

class of evidence making further offers of proof as to this witness and
the next expert an idle gesture and hence unnecessory."
(34) RT Pg. 248, Rachal's Testimony- defense counsel did not cross
examine this witness to determine her credibility even though the witness
was contradicting herself on the stand, and making things up as she go.
(35) Defense counsel did not cross examine to test the credibility of
Denise Hall-Davis, Supra, RT Pgs 350-51. This witness's statement under
oath were inconsistent and not factual- she testified that Ranteesi had
told her that his wife had left him and was no longer living in the house
wit

him. Then she stated that Ranteesi told his son to stop crying or

he would go home and hit his son's mom. This didn't make any sense sine
MILIA had previously moved out of the house and his son would have know.
See Ex A Pg -r. At very least, defense counsel should have asked the
witness:

How is it posible to hit someone who is not living there in

the House" to get the witness to clarify her testimony Se Ex-j?>f
(35) RT Pg. 845, witness Morall testified that Ranteesi said:" I Killed
my wife, you take care of the kids." No one knew for sure at that time
that Milia was dead. Vacaville Police Reports at EX 8 wherein in stated
that the time of death was 17:42, according to his testimony. There are
15 minutes difference between the two when Morall claimed Ranteesi told
him he killed his wife, and when she was actually pronounced dead, up
until that point no one knew for sure, when defense counsel failed to
cross examine and ask Morall.: " How did you know she was dwad,"
and therefore left that important pice of information lie without bringing
it before the Jury. See Ex
(37) Also, Rachal and Tony Rantisi did not know that there mother was
dead at that time, and they claim that Ranteesi said to them: " Oh well
and it's over." this was not true Defense counsel failed to cross examine
Them on this important point. Davis, Supra. No one had declareed Milia
Dead
29

dead;;at this point 17:32 when the alleged conversation with his children
was supposed to have occured. See Ex fT Officer M. Lydon LD # 358. Rachal
was crying uncontrollably and she was unable to have any conversation
with anyone at that time. In Brookhart v Janis 16 LED 2d 314, 318-319
(1966). the court atated:
.. although a compleat waiver of the right to confront witnesses cannot
be made by counsel alone in circumstances which override the defendant's
basic plea of not guilty. Also Boykin v Alabana 23 LED 2d 274 (1969)."
Officer R. Elm Ex f* Pg 1 to confirm the time Also Ex ^ stated:
Simon Rambled, not in the right state of mined due to HallucinationEx f and EX
(38) Defense counsel stated

to Ranteesi that she wouldn't use the Paxil

(Unconsciousness) defense and therefore Ranteesi would have to plead not
by reason of insanity, which was/is unacceptable to Ranteesi.
see Ex &, Report of Dr. Camille Lacroix. However, such a plea is contra­
dictory to

a defense of legal Unconsciousness due to the Involuntary 1 '

intoxication from Paxil use which is the only defense available to
Ranteesi given All of the facts and circumstances of his case. P.C §26-4
and according to Dr. Shipko's Opinion on the side effects of Paxil
See Rt pgs 778-81 & 786 where the Dr. Stated that ranteesi's aggression
emerged as a side effect from Paxil, and see CALCRIM §§ 3425 & 3427,
Ex, £ Pg 3^. Defense counsel attemted to mix the repeald defense of
deminished capacity P.C § 28 with the active defense of legalyUnconscio
sness under P.C § 26-4. Not only was this not a good defense stategy,
but it also shows that defens counsel was not aware of the current s
state of the law as she is required to be for her
to provide adequate
assistance. People v Rodriguez 141 Cal Rptr.

118 (1978):

It is the failure to have an appropriate adjudication of a defense
that reduces trial to

a farce or sham, and which thus renderes defendants

30

Trial fundamentally unfair in violation of constitutional due process
rights guaranteed to defendant."
In Goster v Dugger F 2d 402 (1987), and House v Balkcom 725 F 2d 608
State:

" Defense attorney should at minimum, independently examine:

all relevent facts circumstances, Pleading and laws that relate’to
«t's Case."

Also in in People v Soriono 194 Cal. App. 3d 1470

(1987) and People v Barocio 216 Cal. App. 3d 99 (1989) regarding defense
Jul

counsel's ignorance of law. Under Strickland, Supra:
" Counsel also has a duty to bring to bear such skill and knowledge as
will render the trial a reliable adversarial testing process."
And in Burger v kemp 97 LED 2d 638, the court considered how a counsel's
failure to throughly investigate a case constitutes IAC. Ranteesi's
defense counsel was ineffective. See Ex

Pg.

and CALCRIM § 3428

which is also not applicable to an Unconsciousness defense.
(39) In People V Hacket

Cal. App.4th

(1990), the court commented

on when a patient takes prescription Halcion and Xanax,

they can cause

a person to experience disinhibition which causes aggression and even
Homicide as the end result. In Rantees's case, Dr. Shipko said Ranteesi
did experienced Paxil's Side effects including disinhibition, a lack
of impulse control which in Ranteesi combined with the further Paxil
side effects of mania and hypomania caused him to deterioate into med—
cation caused psychosis ending with the death of his wife Milia RT 778.
(40) Rt Pg. 146 the police did not see witness Morall standing next to
Ranteesi. Defense counsel did not cross examine this witness, about :s
his statement that he talked with Ranteesi right after the crime. Rt
500. Brookhart, supra, @ 318-319:
".. although a complete waiver of the right to confront witnesses cannot be made by counsel alone in circumstances which override the deferident's basic plea of not guilty. Also Boykin v Alabama 23 LED 2d 274

31

(1969)." And in Pointer v Taxas 13 LED 2d 923 (1965):
Violation of the confrontation clause requires reversal unless they
are harmless beyond a reasonable doubt. See also U.S v Bailey 834 F 2d
218 (1987), and U.S. v Alonso 740 F 2d 862 (1984)."
Defense counsel should have cross examined this witness to detrmine if
there was any negative history or attitude between he and Ranteesi and
to determine the motivation and truthfulness of his testimony. Failure
to do so constitutes IAC. In Davis, supra. @ 353. 354:
Our cases construing the confrentation clause hold that a primery
interest secured by it is the right of cross-examination." See Douglas
v Alabama 13 LED 2d 934 (1965)."
Cross examiniation is the principal means by which the believability
of a witness and the truth of his testimony are tested."
"We have recognized that the exposure of a witness’ motivation in tes­
tifying is a proper and important function of the constitutionally protected right of cross-examination."
(41) in the Vacaville police Report , Officer J. Higby LD 135, Ex |T,
Pg. 4, Paster McCamy stated that Ranteesi was not angry or aggressive
towards his wife Milia. Defense counsel did not folow up on that test­
imony with other witnesses, also see Ex 0
(42) RT pg 498 defense counsel stated on the record that Paxil’s nega­
tive side effects occur within the first 30 to 60 days, Then she said
that she would not call other doctors to confirm that (medical testimony
by

> Shipko). Defense counsel should have followed up on this impor­

tant point and should have verified it with other doctor’s testimony.
IN Sixto, Supra, and Shaw, Supra, the court ruled on defense counsel’s
failures to present evidence favorable to the defense. This apply her
Defense Counsel Effectively abandened Ranteesi’s Defense of Legally
of UNCONSCIOUSNESS Cal P.C § 26-4 and CALCRIM §§ 3425 and
to the charged crime with Prejudiced and bias.
32

CALCRIM

REASON FOR GRANTING THE PETITION

ranteed
Under the United States Constitution Fail,irp
o
Pa-nt,,.,, u
*.u
rv£^.
' raiJ-ure to have Ranteesi s
Civil Rights by the Officers of the the court and the Court it self.It is
Rantpp1^ 'ssues to his defense and the court knowingly undermined
Sp*T r>D?£6of o °f Cal P,C § 26-4 Unconsciousnes with its Jury Instr­
uction CALCRIM 3425 and CALCRIM 3427. Right to a fair trial , Due process
of law mforceable against the States courts. .
Piw-ii

Summary : Civil Rights was denied.
The fact of this case is that the fraud committed by the Paxil Manufac­
turer Glaxo Smith Kline (GSK) did caused the Human and Civil violatio
by the Federal Food and Drug Administration (FDA) officials whom they
approved Paxil drugs, which it is a man made chemicals dangerous by nature.
Civil Right violation by the (FDA) officials difraded the supreme court
of California and / or the Superior court of California for the count
of Solano..
Here a miscarrige of justice committed by the trial court because the
court prosecution team defrauded the court by having the trial

:

court sit aside the intoxication from Paxil by claiming that Ranteesi
have a mental illness delusion prior to taking Paxil and the
court must
sit the intoxication on aside. Then the prosecution stating that
everything Ranteesi stated true is true citing People

Exhibit No 19.

Therefore Ranteesi committed a first degree Murder and there
is no del
sion That Ranteesi did harbor at the time of the crime.
This kind of manipulation committed by the Prosecution did caused
Ranteesi's

constitutional and Civil Rights by having the (FDA) approved

of Paxil drugs and the (FDA) where advising the manufacturer in how
to go around the suicidal issues.
Here the (FDA) which is a part of the Federal Human Resources. They
did not appoint a drug "CZAR" to order or approve a drug dangerous
by nature to be used for the treatment of depression or anxiety without
adequate warning.
33

Therefore Many United States Soldiers and Veterans diagnosed with
PTSD committing murder suicide while taking the antidepressant drugs
Like Paxil for the treatment of depression and Anxiety.
Here Ranteesi's Civil and constitutional Rights get Violated by the
State Court prosecution and the (FDA) officials whom they approved
Paxil without adequate warning. A civil Right Violation is a constitut­
ional violation. See the Fourteenth amendment.
Here Ranteesi s constitutional right get violated by the Federal
officials working for the.(FDA) and The District Attorny (DA) of
Solano County Prosecution team. Please see Law suite filed in the
Superior court of California No. FCS041357. Which get removed by
the U.S Attorney to the District Court for the Eastern District of CaliforniaiCase No. 2:13 01335 MCE—CKD. Ninth Circuit No. 13-16966.
Please see Civil Tights " The Right of Citizens: Specifically those
Right Guranteed to the individuals by the 13th, 14th and 19th Amendment
to the United States and by other act of congress. esp the right to
vote, exception from involuntary Servitude and equal treatment of all
people with respect to the enjoyment of life, liberty, and property
and the protection of the Law. Please see the Civil Right monement of
the.(C-R-M) the political movement of the U.S esp in the mid 20th Cen.
Supporting Civil right or African American.
This New discovered evidence in the motion for reconsideration (E/c^F.No.8)
c*" C*ts

and (E.C.F.No.9) should prove that Ranteesi is innocence of the crime.
Here the (FDA) violated Ranteesi’s Civil Human and Constitutional rights
the right to enjoy liberty and justice, freedom and deprived Him of
his Human and civil rights Under California and United States Constitutio.
The denial of Ranteesi’s Civil and Constitutional rights

actualy prejudice

resulted in the denial of his direct appeals in Ca Courts and Federal
courts of the United States of America.

34

REASON FOR GRANTING THE PETITION
Petitioner is entitled under the Fifth, Sixth, and Fourteenth Amendment
o a ew trial for the cumulative effects of the errors in both the
Trial court and courts of appeals by the trial and appellate counsel,
rosecution, Trial Judge, appeallat Judges working togather to >d^deny
Ranteesi His Human, Civil, Rights and By the (FDA) officials nagligetly
approved the Paxil and have the Solano (DA) prosecution teame to be

Kp5ISpUriISB%SBilSSSiS.I*i1ii5?t"8St4Sfi!lc!iJgS£cSSS9.ISfsnSi.o
and appeHant Judges working together to deny Ranteesi due process of
law, Fair trial, Fair and impartial jury, and equal prorection of thel^w*
Summary: Fair and equal Protection of the law was denied.
Cumulatively, the various issues eased above it denied Ranteesi his , Due
process of the Law, Fair trial. Fair and impartial Jury, and equal
protection of the Law. See Wiggins v Smith 123 S. CT, 2527 (2003): Mickens
v Taylor 535 US 162 (2002); Holmes V So. Carolina 126 S.CT 1727 (2006)
Brady v Marylanr, Supra; U.S v Bagley 473 US 667,

105 s. CT Kyles V

Whitly, Supra; Washington V Texas 288 US 14 (1967); Miranda V Arizona
184 US 436 (1966).
Ranteesi has above stating the facts supporting the various issues rased
in the first Questions

9 9

Ineffective assistance of Counsel, Prosecutorial

Misconduct, Judicial errors,

Inefective of appellant counsel, and appellat

Judicial errors, Civil rifgts Violation , and Fraudulent expert witnesses
all have worked togather to deny Ranteesi aa fair trial and Fair direct
appeal process the actions/ Failure to act prejudiceed Ranteesi in his
unconstitutional conviction for the First Degree Murder, and the denial
of a fair and impartial direct appeals process in the California State
Courts.
Ultimetely, Ranteesi's Trial counsel was Ineffective in failling to us
the customary skills and dilogence customary to a vigorous advocate of
a defendant’s Right. In U.S v Galderon 127 F3d 1314 (1997) " In addresing
claim of cumulative error, court of appeals must examin trial as a whole
to determine whether defendant was afforded Fundamentally fair Trial".

35

U.S V Mays 69 F 3d 116 (1995) " Cumulative error analysis is relevant when
there were certain errorsat trial which, when considered alon may not
deprive person of due process, but may cumulatively produce trial that is
fundamentaly unfair"

In US v Rivera 900 F2d 1462 (19(0);

Unless aggregate harmlessnes determination can be made, collective err§r
will mandate reversal, Just as surely as will individual error that cannot
be considered harmless".

Harmlessness of cumlative error is determined

by consucting same inquiry as for individual error- courts look to
whether defendant's substantial rights where affected."
And in U.S v Sanders 928 F 2d 940 (1991):

" cumulative effect of two or

more Individually " Harmless" errors maywarnt reversal where substantial
rights of defendant were affected" .
In and at it selfe the constitutional denial of the Unconsciousness due
to the Involuntary intoxication defense,
of first degree Murder and the issue

is a complte defense to the charge

alone should require 'a inew trial for

RANTEESI, but when combined with all the rest of the issues rasied herein,
even if all the other were Individually ruled to be "Harmless" error, would
they cumulatively also be considered harmless? No, they wouldn't.
Additionally trial counsel should have filed a thired party chargees against
Paxil Manufacturer Glaxo Smith Kline (GSK), Product Liability and / pr
Medical Malpractice claim against the Doctor Who prescribed Paxil and the
Pharmacy who sold the Paxil and a constitutional Claim against third Party
which is the Federal Food And Drug Administration (FDA) in connection with
Ranteesi's Ingestion of Paxil, and as the Ninth Circuit decission on my
case Title Simon Ranteesi v Josie Gastelo, Warden No.
To the extent that insofar as the ASppleant
constitutional,

19-71582 %ee

seeks permission to bring

product liability, negligence and / or medical Malpractice

claims against third parties in connection with his ingestion of Paxil

36

such claims may not be brought in federal habeas corpus, and we decline to
consider those claims in this proceedind. See Nettles v. Grounds, 830 Fd
922, 929-35 ( 9th Cir. 2016) ( en banc) ( Prisoner claims that would
not a
necessarily lead to immediate.or earlier release do not fall within the
"core of habeas corpus" and may not be brought in a habeas proceeding).
Since their product "PAXIL" contributed in large part and that what did
cause ranteesi's Act of aggression against his wife MILIA did contributed
in the wrongful death of Milia Ranteesi in the case against her husband
simon Ranteesi who is currently serving a sentance of 26 Years to life for
First degree murder due to the sever side effects of Paxil that he was
properly taking under a valid doctor's prescription. That the side effects
of PAXIL led to Akathesia, disinhibition, mania and aggression in a state
of Unconsciousness with out any fault on Ranteesi's part to the point that
it caused him to kill his wife in a Paxil fueled Psychotic state,':
Trial counsel failed to inform the court thattthe prosecution had violated
brady v Maryland, supra , and move to have any and all outs standing evidence
disclosed to the defense, and even have the court to modefy the jury
instruction

which it was an Ex post Facto Law because the law under the

Cal. P.C 26-4 Unconsciousness do not impose a criminal liability on a
defendants who acted legally Unconscious of,.but under the modifiy instruc­
tion the Jury have no mean

to fined the defendant Ranteesi Not Guilty

bt to find him guilty and this is a prosecutorial misconduct and it is a
govermental misconduct that led to convic Ranteesi whil he was the victim
of medical Malpractice ,product liaability, negligent, and a constitutional
error by a third parties in connection with Ranteesi's ingestion of Paxil.
Here the defense attorney have been told by Ranteesithat there were
several sources and information that the prosecutor had not disclosed
to the defense i,e 11—11—01 Police report( File And photo) Tex report, etc
several law suite against Paxil Manufacturer because of Paxil drugs.
.37

Prosecutor not sua sponte disclosing that evidence at discovery prior
to trial, and police investigators notes on Paxil Lawsuits andcourt
disision which they did have prior to trial. and with no experts >on Paxil
to testified to the side of the defense,

instead the prosecution and the

public defender office using the defense expert witness Dr Shipko in favor
of the prosecution because of Ineffective assistance of counsel (IAC)
because the district attorney office is the one who paied the expert witness

Dr. shipko through the Public defender office this
is Fraudulently using
the expert on Paxil in to the Prosecution side and lert Ranteesi without r
any defense at all. and this is clearly a violation of due process of law
and the right to have a defense in to Ranteesi's

favore.

Then the prosecutor illegally built up the first degree Murder charge s
against Ranteesi when he knew that Ranteesi was Involuntary intoxicated
from Paxil and as such not responsible for the crim and his own action under
the law of the state of California and the United States. The police also
knew these facts at the time of the crime and shortly thereafter that the
Paxil causes aggression and mane state in people properly taking this mad •A
ication Causing them to commit murder Suicide, without ther Knowledge at All.
For this reason the petition also should be granted to not allow the police
investigators,

prosecutors, trial and judge counsel to withheld evidence

~nd twist the law that exist that time to covict the victim and the innocent
of medical malpractice due to paxil Medication, and society should be allowed
to

punish the defendants

but not victimized and convict the innocence.

It cannot be said beyond resonable dout that the negligent on Vacavil po1 ice part, investigators, prosecutors, trial Counsel, and trial Judge did
hot seriously impact the trier of facts's decision at trial and had all
of the information been made available through a fair adversarial process
that a diferent result would not have been reached.

38

A definitely more favorable result

should have been reashed in to

Ranteesi's case, but due to a massive a deep fraud committed by the
Manufacturer of Paxil and due to the Govermental misconduct committed
by the California Government through the Solano District Attorny office
prosecutor teem which they claim the they is no knowledge

of Paxil

Dangerous side effects that causes murder in the posession of Solano
County Prosecution teame . and this is clearly a Prosecutorial Mis
conduct on Part of California Government.
Ranteesi should have been found not guilty period and definetly not
first degree murder considering the fact that the UNconsciousness du
to involuntary Intoxication defense, had it been allowed and accepted
by the jury would have precluded by the defense since it disallows r
the finding of a specific intent due to that Involuntariness and
Unconsciousness California Penal Code 26-4 and its Jury Instruction
CALCRIM 3425 and CALCRIM 3427.

C.&^b

The rtou-ffo”
#e£4>i9jt
> 7kc
f'cCicVcJ, '•jrs'bfq.'fhc (T'/PA) s<*e''£jc- c,p "

£ Crf~

■

ei/S£c 77

Society shohld be allowed tp punish creeps, mistress, second hand
and third Parties negligent if their purpose was a financial gain that
it render the cause of disastrous occurrence, and society should be
allowed to pretect its citizens consumers, and the innocent defendans
from due process violation due to afraud by the manufacturer of drug.

DECLERATION OF
I Simon F ranteesi declare pursuant to 28 U.S.C 1746 under the
penalty of perjury that the Paxil Medication was the cause of my
aggression againt my wife that led to l§st of her life was ordered by
primery care provider Doctor Constanceand that the California gove­
rnment by the Solano District Attorney (DA) Prosecutor team they did
violated the (Ex Post Facto Law ) by denying the basis of the expert
witnesses that permit the Unconsciousness defense Gal P.C 26-4 this
39

is clearly a govermental misconduct on part of California Government
The ex post facto clause, U.S Cons . Art 1 9 Cl. 3 and Art 1 10.
There fore you can make sure, say and state with confidence that the
laws are fully established and squarely fallowed for the reason to
avoid2prejudice, bias, & discrimination as law & Justice required.
PRAYER FOR RELIEF
For the foregoing reasons this court may grant the petition for
a writ of certiorari and order full briefing.

VERIFICATION
I Simon F Ranteesi, the petitioner for a writ of certiorari
do swear under the penalty of purjury that the above is true and
correct to the best of my knowledge sworn this

otAy±un

Day

202-0?

CONCLUSION
The Petition for a Writ of Certiorari Should be Granted

\

DateA2c. 2^
Respectfully Submitted

Simon F Ranteesi F-41729
In Pro Se

40

